IN THE SUPREME COURT OF THE UNITED STATES
No. 19-873

Geophysical Service,Inc.,
Petitioner,
V.

TGS-NOPEC Geophysical Company,

Respondent

CERTIFICATE OF SERVICE

Pursuant to Rule 29.5 of the Rules of this court, I certify that all parties re

quired to be served have been served. On February II, 2020,1 caused copies of a
Letter to the Clerk Granting Blanket Consent to Filing of Amicus Curiae Briefs to
be served by first-class mail, postage prepaid; through the Court's electronic filing
system on those registered with the system; and by electronic mail (as designated)
on those on the attached list.
Ms. Melanie B. Rother

Mr. Peter C. Tipps
Norton Rose Fulbright US LLP
1301 McKinney, Suite 5100
Houston, TX 77010-3095
melanie.rother@nortonrosefulbright.com

peter.tipps@nortonrosefulbright.com
Counselfor Respondent

Joel B. Rothman

Counsel ofRecordfor Petitioner

